                                        Testimony of

                        THE HONORABLE TODD J. ZINSER
                             INSPECTOR GENERAL
                           U.S. DEPARTMENT OF COMMERCE

                                    before a hearing of the

                   Subcommittee on Investigations and Oversight
                   Committee on Science, Space, and Technology
                              U.S. House of Representatives

                             Wednesday, November 30, 2011

         Stimulus Oversight: An Update on Accountability,
                 Transparency, and Performance
Chairman Broun, Ranking Member Tonko, and Members of the Subcommittee:

I appreciate the opportunity to testify today about our oversight of the Department of
Commerce’s implementation of the science, technology, and other programs funded through the
American Recovery and Reinvestment Act of 2009. The Recovery Act demands of its recipient
federal agencies unprecedented accountability and transparency—related to both their spending
decisions and the impact of funded activities—particularly as they contribute to the
administration’s goals of creating jobs and strengthening the economy.

The Recovery Act established a central role for Offices of Inspector General in monitoring their
agency’s use of funds in efforts to prevent fraud, waste, and abuse. My testimony today will
focus on our oversight of the $7.9 billion of Recovery Act funding that the Department of
Commerce received, including:

       challenges and risks the Department of Commerce has encountered in spending these
       funds,

       a summary of the Department of Commerce OIG’s Recovery Act oversight activities, and

       lessons learned from our oversight of Recovery Act spending.




                                                1
Slower Spending Has Challenged Agencies’ Science, Technology, and Business
Development Initiatives Aimed at Job Creation

Of the $7.9 billion in Recovery Act funds the Department of Commerce received (see table 1),
$1.1 billion was ultimately rescinded or transferred to other agencies. Bureaus receiving funding
include the Census Bureau, Economic Development Administration (EDA), National Institute of
Standards and Technology (NIST), National Oceanic and Atmospheric Administration (NOAA),
and the National Telecommunications and Information Administration (NTIA). Additionally,
OIG received Recovery Act funds for oversight purposes.

                              Table 1. Department of Commerce
                                    Recovery Act Funding
                                                                Amount
                                             Amount           RESCINDED
                              Agency        FUNDED                 or
                                                                            a
                                          (in millions)     TRANSFERRED
                                                              (in millions)
                              NTIA               $5,300                  $737
                              Census             $1,000
                              NOAA                 $830                     $350
                              NIST                 $610
                              EDA                  $150
                              OIG                   $ 16
                                Total            $7,906                   $1,087
                          Source: OIG
                          Shaded: agencies with science or science-related funding
                          a
                            Digital TV Transition and Public Safety program (DTV)
                          rescissions totaled $240 million; the Broadband Technology
                          Opportunities Program (BTOP) rescission was $302 million.
                          Transfers to other agencies include NOAA ($350 million) and
                          NTIA ($195 million) transfers. Of the $545 million total in
                          transfers, $18 million was returned to NOAA in unspent
                          funds.


As of September 30, 2011, the Department had obligated almost all of the remaining $6.8 billion
of Recovery Act funds and disbursed approximately $2.9 billion (see figure 1):




                                                      2
                                      Figure 1. Commerce Agencies' Recovery Act Obligations
                                        Commerce Operating Units' as
                                           and Disbursements      Recovery Act Obligations
                                                                     of September          and Disbursements as of
                                                                                     30, 2011
                                                                   September 30, 2011
                         $4,500                                                                                                         99%           100%           100%
                                  $4,217                Total Obligations
                                                        Total Disbursements
                         $4,000                                                                                                                                      90%
                                                        Percent Disbursed
                                                                                                                       81%                                           80%
                         $3,500
                                                                                                      74%
                                                                                                                                                                     70%
                         $3,000
 Dollars (in millions)




                                                                                                                                                                            Percent Disbursed
                                                                                                                                                                     60%
                                                                                    58%
                         $2,500
                                                                  51%                                                                                                50%
                         $2,000
                                                43%
                                                                                                                                                                     40%

                         $1,500
                                                                                                                                                                     30%
                                                                                                                                        $1,000
                         $1,000     20%                                                                                                                              20%


                          $500                   $360                                                                                         $995     $334          10%
                                       $832                        $249              $241                               $231
                                                                                                       $149
                                                        $155              $127              $139              $111             $188                           $333
                            $-                                                                                                                                       0%
                                     NTIA     NIST Construction     NOAA         NIST Total Science   EDA Economic   NOAA Operations,     CENSUS        NTIA DTV
                                  Broadband      of Research     Procurement,      and Technical       Investment     Research, and     2010 Census
                                                  Facilities    Acquisition, and   Research and                         Facilities
                                                                 Construction         Services



  Source: Data from Department of Commerce weekly spending reports; chart created by OIG
  Obligations for NOAA procurement, acquisition, and construction (PAC)—as well as NOAA operations, research,
  and facilities (ORF)—total $480 million. The remaining $350 million was transferred to other federal agencies for
  completions of specific Recovery Act projects. The two largest of these projects was $140 million transferred to the
  Naval Facilities Engineering Command for construction of the Pacific Regional Center in Hawaii and $73 million
  transferred to the Department of Energy for assistance in high performance computing services provided by Oak
  Ridge National laboratories.

Two agencies in our Department (NOAA and NIST) received $1.4 billion for purposes that OIG
categorizes as science or science-related.

NOAA has directed its Recovery Act funds toward activities intended to promote and enhance its
broad marine and environmental stewardship mandates:

                             $430 million for construction and repair of NOAA facilities, ships, and equipment;
                             improvements in weather forecasting; and development of satellite sensors. NOAA
                             consolidated laboratories and facilities are under construction in La Jolla, California, and
                             Honolulu, Hawaii. The NOAA satellite tracking station at Fairbanks, Alaska, has been
                             completed. The NOAA Ship Reuben Lasker (FSV6) is under construction and two
                             climate monitoring instruments are under development for the Joint Polar Satellite
                             System program.

                             $230 million for habitat restoration, navigation projects, and vessel maintenance
                             have made significant progress towards completion.



                                                                                              3
        $170 million for climate modeling activities and climate research, including
        procurement of supercomputers that have been installed.

NIST has used its Recovery Act funds to expand its technical research capacity:

        $360 million to construct research facilities, including $180 million in competitive
        grants to universities for the construction of research science buildings; and

        $220 million in scientific and technical research, equipment, and services.

In addition, NIST has received an additional $20 million from the Department of Health and
Human Services to accelerate efforts to develop and deploy health records and a nationwide
health care information technology testing infrastructure—as well as $10 million1 from the
Department of Energy to develop a comprehensive framework for a nationwide, fully
interoperable “smart grid” for the U.S. electric power system.

The remaining $5.4 billion was spread across NTIA, Census, and EDA for the expansion of
broadband services, 2010 decennial census operations, and public works projects respectively.

To meet Recovery Act goals for unprecedented transparency and accountability (stated in
section 1512), recipients of Recovery Act grant and contract funds are required to submit
quarterly reports containing detailed information on projects, activities funded by the Act, and
their impact on jobs creation. It also directs agencies to review this information before it is
posted to a public website (www.Recovery.gov). For the quarter ending September 30, 2011,
the Department’s recipient reporting data includes:

        437 ongoing grants required to provide quarterly reports, representing almost $4.7
        billion of obligated funds, and 35 fully completed grants totaling $58 million (about 1
        percent of the total value of grants awarded);

        196 ongoing contracts required to submit quarterly reports, representing almost $539
        million, and 283 fully completed contracts totaling approximately $338 million (about
        40 percent of the total value of contracts awarded); and

        4,748 jobs created or retained2 from grants and 687 from contracts.

In our July 29, 2011, audit report Commerce Has Procedures in Place for Recovery Act
Recipient Reporting but Improvement Should Be Made, we found that the Department has
implemented effective internal controls over its Recovery Act recipient reporting and, as a result,
had an overall very low error rate. However, this success arose as the result of the Department’s
grants and contracts personnel performing many manual procedures to compensate for grant and
contract system inadequacies. We made recommendations on several areas in which the

1
  After February 2009, the Department of Energy added another $2 million to the $10 million it sent to the NIST
Scientific and Technical Research Services account to help develop a comprehensive framework for a nationwide,
fully interoperable “smart grid” for the U.S. electric power system.
2
  “Jobs created or retained” calculations derive from jobs funded in that quarter by the Recovery Act. Agencies
report jobs created or retained quarterly and are not cumulative.


                                                        4
Department could reduce its reliance on manual effort, increase the efficiency of its reporting,
and improve data quality. For example, its systems could be updated to make data fields
consistent with recipients’ quarterly reports. Also, implementing a single Department-wide
management system to replace the three current systems would further streamline processes and
increase accuracy.

Newer Programs Experienced Slower Disbursements Than Existing Ones

As detailed in figure 1, the disbursement rate of what OIG considers science, science-related, and
technology funds ranges from a low of 20 percent to a high of 81 percent. Agencies have faced
challenges—first in obligating and now in spending the funds—with certain programs.

The slower-developing disbursements resulted from:

       establishing new programs, like NTIA’s $4.7 billion Broadband Technology
       Opportunities Program (BTOP), the largest of the new programs;

       building facilities that required environmental assessments before construction could
       even start; and

       the lengthy process of soliciting and evaluating proposals for competitive grant and
       contract awards.

Funding that supplemented existing programs, such as the 2010 decennial census and NTIA’s
digital-to- analog TV coupon program, experienced much quicker disbursements. With new
programs established, awards made, and many environmental assessments completed, spending
should now accelerate.

The Department Faces Risks of Not Completing Recovery Act Projects on Time

Other challenges remain to completing projects on time. Recovery Act spending in general—
and, thus, the Department’s Recovery Act-funded science and science-related programs—relies
heavily on grantees and contractors completing these projects. Effective oversight by the
Department and its agencies is necessary to make sure projects are completed and the science-
related benefits sought for both the public and government use are realized.

An additional challenge is the September 15, 2011, OMB guidance to accelerate spending for
Recovery Act grants. In light of the current economic situation and the need to maximize
economic stimulus, OMB stated that it is critical that agencies spend remaining grant funds as
quickly and efficiently as possible. To that end, OMB directed agencies to accelerate the
spending of Recovery Act grant funds, consistent with existing laws and regulations and
program objectives—if these funds remain unspent by September 30, 2013, agencies will
reclaim them to the extent permitted by law. This new OMB policy aims to compress the period
of availability for the bulk of remaining grant funds into the next 2 years. OMB has provided a
way for federal agencies to request waivers from the September 30, 2013, deadline. However,
agencies should request such waivers sparingly.




                                                5
The Department’s agencies and programs facing construction-related challenges with the new
OMB guidance on accelerating Recovery Act grant spending include:

       $3.4 billion in 121 NTIA BTOP comprehensive community infrastructure grants,

       $180 million in 16 NIST competitive construction grants,

       $170 million in 50 NOAA habitat restoration grants, and

       $150 million in 67 EDA economic adjustment assistance grants.

Each of these agencies fund some construction-related grants currently scheduled for
completion after the September 30, 2013 deadline—or have projects that will likely require
extensions beyond September 30, 2013, based on their current rate of project completion.
Agencies are working with their recipients to accelerate project completion when possible.

Based on our review of agencies’ progress reports, there are still some projects lagging behind
schedule (as reported by NOAA). For example:

       The building of the NOAA ship Reuben Lasker (an $87 million project using $80
       million in Recovery Act funds) has experienced significant construction delays that will
       prevent the transit of the ship to the Atlantic Ocean prior to the winter closure of the St.
       Lawrence Seaway. In addition to the construction delays, the ship has had difficulty
       meeting the acoustic quieting performance requirements of the contract.

       The La Jolla Southwest Science Center in California (an $85 million project using $79
       million in Recovery Act funds) is currently 90 days behind schedule—and the
       government is currently in dispute with the contractor as to whether the fault of the
       delay lies with the contractor or the government. If it is found that the government is at
       fault, the cost of project completion will also increase.

       The High Performance Computer Center (with research occurring at Oak Ridge National
       Laboratory, Tennessee, and development in Fairmont, West Virginia) had a 2-month
       construction delay attributable to Fairmont facility renovation. Concurrently, there was
       also a delay in the delivery of computer chips to the Oak Ridge Laboratory. The High
       Performance Computer Center’s total cost is $170 million.

Along with NOAA, our office will continue to monitor these projects through their completion.

In our ongoing work on NIST construction grants, we focus on the low completion rates of
several projects, which risk meeting federally mandated deadlines. During our field work, we
found that at least 4 of the 16 projects scheduled for completion by September 30, 2013—
according to grant award documents—will probably not meet this completion date based on the
estimated number of construction days required to complete the project. NIST’s construction
grants program is relatively new (prior to the Recovery Act, it had awarded only three grants)
and has experienced many new-program setup challenges.




                                                 6
Summary of OIG Recovery Act Oversight

In our March 2, 2009, Initial Oversight Plan for the American Recovery and Reinvestment Act
of 2009 we outlined the key elements of our oversight framework:

       dedicated Recovery Act staffing;

       targeted risk-based audit and investigative planning and expedited reporting;

       participation (in an advisory capacity) in Department steering committee and working
       groups; and

       training for potential applicants, awardees, contractors, and Department personnel on
       internal controls, compliance, and fraud awareness.

Our audit plan targeted the highest-risk programs and activities with more oversight. To
implement this plan, our oversight has included tracking of program progress and reporting,
performing training and outreach, and conducting specific reviews. As BTOP represents the
Department’s largest amount of Recovery Act funds and the riskiest of the projects, we have
placed much of our focus on this program.

Since the passage of the Recovery Act, we have:

       issued 15 audits and evaluations providing recommendations to improve program
       operations in the areas of operational efficiency, compliance with Recovery Act
       requirements and OMB guidelines, and internal controls for monitoring project progress
       (see appendix A); and

       performed over 100 separate training and fraud prevention sessions for about 5,500
       program officials and potential grant recipients—on topics such as fraud awareness,
       lessons learned for first-time award recipients, and the importance of monitoring
       subrecipients of grant funds (see appendix B).

   We have received and processed numerous complaints—and, for some, we have opened
   investigations. For instance: based on a referral from the Recovery Accountability and
   Transparency Board, we investigated a company that was awarded numerous federal
   contracts, including several NIST contracts funded by the Recovery Act. The firm had pled
   guilty in March 2008 to a criminal charge involving export regulations. Our subsequent
   investigation found that company personnel inaccurately certified to federal contracting
   offices that the firm had not been convicted of a crime or had a civil judgment against it
   within 3 years preceding the certification. During the period covered by these certifications,
   the company obtained 276 contracts from 16 agencies—totaling nearly $20 million. Based
   on our findings, the company was initially suspended from future contracting and recently
   entered into a corporate compliance agreement as an alternative to debarment.

Currently we are performing reviews of NIST’s oversight of Recovery Act construction grants,
BTOP grantees’ $1.4 billion matching share (that portion of project costs not borne by the
federal government), and NTIA’s monitoring of the Booz Allen Hamilton contract for support


                                                7
of the BTOP program. (The total contract value was $99 million, of which $75 million will be
exercised). We are also reviewing complaints against a BTOP award that benefits the San
Francisco Bay Area. Finally, we monitor each quarter the recipient reporting results and the
progress of the projects that represent higher risk for completion or meeting program goals. For
FY 2012, we plan to initiate a review of available Recovery Act funds in interagency
agreements and memorandums of understanding involving NOAA and NTIA. Other planned
FY 2012 reviews include the monitoring of BTOP subrecipients, acquisition of BTOP project
equipment, and sustainability for BTOP-funded projects.

Lessons Learned Include the Value of Up-Front Planning and Timely Data Analysis by
Agencies

Agency practices for administering Recovery Act funds that have added significant value
include:

       Anticipating internal control issues and addressing recurring audit findings from similar
       grant programs;

       Setting up adequate program policies, procedures, and staffing before soliciting and
       awarding grants and contracts (to avoid problems in completing complex construction
       and technology projects); and

       Close monitoring of grant and contract activities—including spending and performance
       outcomes—to ensure program goals are met.

We raised early concerns about balancing the timeliness of making awards while ensuring
compliance with program requirements and legislative intent in our May 8, 2009 Commerce
Experience with Past Relief and Recovery Initiatives Provides Best Practices and Lessons
Learned on How to Balance Expedience with Accountability. In that report, we noted how
adequately staffed quality control and quality-assurance programs within agencies are essential
to the efficient and effective use of taxpayer dollars. Also, the 2005 Guide to Opportunities for
Improving Grant Accountability issued by the Domestic Working Group Grant Accountability
Project (sponsored by the Comptroller General of the United States, with participation by
federal, state, and local audit organizations) states “[o]rganizations that award . . . grants need
good internal control systems to ensure that funds are properly used and achieve intended
results.”

Our early Recovery Act reports emphasized the importance of addressing recurring audit
findings from similar grant programs and setting up program policies and procedures.

       In March 2009, we reported that NTIA should apply lessons learned from the Public
       Safety Interoperable Communications Program to ensure sound management and timely
       execution of the $4.7 billion BTOP. Specifically, we cited the need to (1) evaluate and
       approve detailed project proposals and spend plans with peer reviews before making
       grant awards, (2) complete environmental assessments expeditiously, so as not to hinder
       grantees from completing their projects within mandated time frames, and (3) work with
       OMB to ensure adequate resources to manage the program operations beyond FY 2010.


                                                  8
       In October 2009, our report on NIST and NOAA grants recommended that NOAA
       review prior audit reports and take actions to mitigate risks of making an award to an
       entity with known performance problems. We also recommended that the Department
       update how individual background screening was conducted to assure that grant awards
       were made to recipients that were responsible, competently managed, and committed to
       achieving award objectives.

       In May 2010, our report on monitoring Recovery Act program performance
       recommended that NIST and NOAA establish performance metrics to measure outcomes.
       Specifically, we recommended that performance metrics for their more significant
       Recovery Act programs should focus on intermediate outcomes that assess the programs’
       benefits. For example, performance metrics should track whether a program has
       improved the body of knowledge in a particular field, disseminated newly developed
       tools and models, supported research or technology innovation, or made advances in
       science and technology for the public’s benefit.

       In November 2010, we reported our concern that a lack of oversight funding (and its
       impact on NTIA’s oversight of the awards) substantially increases the risk of delay in
       grants projects—and jeopardizes the agency’s ability to guard against waste, fraud, and
       abuse. We (1) encouraged NTIA to work with OMB and Congress to ensure adequate
       resources to administer the program and (2) recommended that they develop alternative
       approaches to monitoring and oversight based on different funding levels.

More than two and a half years after passage of the Recovery Act, the twin challenges of setting
up new programs and the long lead time to complete construction projects has resulted in much
of the Department’s spending being incomplete. NTIA’s BTOP provides an example of the
challenges encountered with setting up a new program. BTOP has had to confront a number of
challenges, including staffing a program office, implementing new systems, developing grant
program rules and regulation, coordinating development of activities with other departments and
agencies (such as the Department of Agriculture and Federal Communications Commission),
awarding grants, and performing effective oversight activities.

Oversight of BTOP is complicated because (1) the awards went to a diverse group of recipients
that included public entities, nonprofit organizations, tribal entities, and for-profit corporations
with varying levels of experience in administering federal awards, and (2) NTIA must require the
projects be completed within 3 years of grant award issuance. Timely completion of
infrastructure projects (e.g., laying new fiber optic cables or upgrading wireless towers) poses a
particular challenge as most of these require site preparation, construction, or ground disturbing
activity. For example: of approximately 230 total awards, 118 made as of September 30, 2010
(representing nearly $3.2 billion in BTOP awards), required completed environmental
assessments before permitting significant project progress such as construction. Many of the
environmental assessments have taken longer than the 6 months planned. As of September 30,




                                                 9
2011, 12 award recipients still had outstanding environmental assessments or special award
conditions,3 totaling approximately $500 million in federal funds.

Some of the Department’s science-related Recovery Act-funded projects have faced spending
challenges. Because of (1) the complex nature of many of these science and science-related
projects, (2) delays that some projects have encountered, and (3) OMB guidelines that
necessitate funds be spent by September 30, 2013, the Recovery Act requires close monitoring of
these projects by the agencies and continued oversight by our office. Despite the slower pace at
which science and science-related spending has occurred, the Department’s Recovery Act-
funded programs represent a promising mix of new programs and continued vital support of
projects that advance the United States’ role as a world leader in science and technology.

Mr. Chairman and members of the subcommittee, this concludes my statement and I would be
happy to answer questions at this time.




3
 As of November 7, 2011, NTIA reported that 10 award recipients still had outstanding environmental assessments
or special award conditions totaling approximately $445 million.


                                                       10
                                       APPENDIX A
          Department of Commerce OIG Recovery Act-Related Reports, Testimony,
                          Works in Progress, and Audits Planned
Recovery Act-Related Reports

      NTIA Has an Established Foundation to Oversee BTOP Awards, But Better Execution of
      Monitoring is Needed: OIG-012- 013-A, (November 2011)
      Commerce Has Procedures in Place for Recovery Act Recipient Reporting, but
      Improvements Should Be Made: OIG-11-031-A (July 2011)
      Review of BTOP Award for the San Francisco Bay Area Wireless Enhanced Broadband
      (BayWEB) Project: OIG-11-024-A (May 2011)
      2010 Census: Cooperation Between Partnership Staff and Local Census Office Managers
      Challenged by Communication and Coordination Problems: OIG-11-023-I (April 2011)
      Commerce Needs to Strengthen its Improper Payment Practices and Reporting: OIG-11-
      021-A (March 2011)
      Broadband Program Faces Uncertain Funding, and NTIA Needs to Strengthen its Post-
      Award Operations: OIG-11-005-A (November 2010)
      Review of Recovery Act Contracts and Grants Workforce Staffing and Qualifications at
      Department of Commerce: ARR-19900 (September 2010)
      NIST & NOAA Monitor Their Recovery Act Programs, but Performance Metrics Need
      to Measure Outcomes: ARR-19881 (May 2010)
      NTIA Must Continue to Improve its Program Management and Pre-Award Process for its
      Broadband Grants Program: ARR-19842-1 (April 2010)
      Review of Contracts and Grants Workforce Staffing and Qualifications in Agencies
      Overseeing Recovery Act Funds (March 2010)
      More Automated Processing by Commerce Bureaus Would Improve Recovery Act
      Reporting: ARR-19779 (December 2009)
      Commerce Has Implemented Operations to Promote Accurate Recipient Reporting, but
      Improvements Are Needed: ARR-19847 (October 2009)
      Improvements Recommended for Commerce Pre-Award Guidance and NIST and NOAA
      Processes for Awarding Grants: ARR-19841 (October 2009)
      Commerce Experience with Past Relief and Recovery Initiatives Provides Best Practices
      and Lessons Learned on How to Balance Expediency with Accountability: ARR-19692
      (May 2009)
      NTIA Should Apply Lessons Learned from Public Safety Interoperable Communications
      Program to Ensure Sound Management and Timely Execution of $4.7 Billion Broadband
      Technology Opportunities Program: ARR-19583 (March 2009)




                                            11
Recovery Act-Related Testimony

      IG’s Testimony on Recovery Act Broadband Spending: Subcommittee on
      Communications and Technology, House Committee on Energy and Commerce
      (February 2011)
      IG’s Testimony on FY 2012 Commerce Appropriations/Top Management Challenges:
      Appropriations Subcommittee on Commerce, Justice, Science, and Related Agencies,
      House Committee on Appropriations (February 2011)
      IG’s Testimony on Recovery Act Oversight: Subcommittee on Investigations and
      Oversight, House Committee on Science and Technology (March 2009)

Recovery Act-Related Audits and Reviews in Progress

      Further Review of Complaints Made Against a BTOP Award to the Bay Area
      Announcement of Audit of Broadband Technology Opportunities Program, Booz Allen
      Hamilton Contract
      Announcement of Review of NTIA Broadband Technology Opportunities Program
      (BTOP) Grantees’ Match
      Announcement of Review of NIST’s Oversight of Recovery Act Construction Contracts
      (Maintenance, Renovation, Construction of New Facilities and Labs)
      Announcement of Review of NIST’s Oversight of Recovery Act Construction Grants
      (Research Science Buildings)

Recovery Act-Related Audits Planned

      Review of Available American Recovery and Reinvestment Act (ARRA) Funds in
      Interagency Agreements and Memorandums of Understanding
      Acquisition of Equipment for Broadband Technology Opportunity (BTOP) Projects
      Review of Subrecipient Monitoring Efforts
      Review of Sustainability Issues for BTOP Projects




                                            12
                                        APPENDIX B
Recovery Act Training Delivered by Department of Commerce OIG, as of September 30, 2011
As of September 30, 2011, OIG's Recovery Act Task Force and Office of Investigations have
conducted more than 100 onsite and video training sessions and briefings related to the
mitigation of fraud, waste, abuse, and mismanagement of Recovery Act funding. This extensive
national effort has reached a combined audience of more than 5,500 Department employees
involved in procurement, grants, and programs—as well as current and potential recipients of
Recovery Act grants from five of the Department's bureaus (EDA, Economic and Statistics
Administration/Census, NIST, NOAA, and NTIA).

The five training topics developed and delivered by OIG staff addresses grants and contract
management and fraud prevention. Two others—construction cost estimating and suspension and
debarment—were created and presented by private contractors. In addition to their focus on
transparency and accountability, all briefings emphasize whistleblower protections and
encourage reporting to OIG concerns about the use of Recovery Act funds.


                                           Number                  Hours of
                                                      Attendees
                Training                     of                    Training
                                                       Trained
                                           Events                  Provided
                BTOP                           50         2,701       2,871
                Fraud Prevention               44         1,669       2,144
                Grants                         11           244         478
                IG Outreach                     7           830       1,030
                Contracts                       4            78         156
                Construction Cost
                                                  2          34         322
                Estimating
                Suspension and
                                                  1          38         228
                Debarment
                Total Inception to Date        119        5,594       7,229




                                             13
                                                        APPENDIX C
                            Department of Commerce OIG Recovery Act Fundinga
Agency              Amount                Purpose (from Joint Explanatory Statement)
EDA                 $150,000,000          Leverage private investment, stimulate employment and increase incomes in
                                          economically distressed communities.
                           $50,000,000    Economic Adjustment Assistance to help communities recover from sudden and
                                          severe economic dislocation and massive job losses due to corporate restructuring.
                           $50,000,000    May be transferred to federally authorized, regional economic development
                                          commissions.
Census              $1,000,000,000        To hire additional personnel, provide required training, increase targeted media
                                          purchases, and improve management of other operational and programmatic risks.
                          $250,000,000    Up to $250,000,000 shall be for partnership and outreach efforts to minority
                                          communities and hard‐to‐reach populations.
NTIA                $4,700,000,000        BTOP, to be available until September 30, 2010. For competitive grants to accelerate
                                          broadband deployment in unserved and underserved areas and to strategic institutions
                                          that are likely to create jobs or provide significant public benefits.
                          $350,000,000    To establish the State Broadband Data and Development Grant program, as
                                          authorized by Public Law 110‐385 and for the development and maintenance of a
                                          national broadband inventory map as authorized by division B of this Act.
                          $200,000,000    For competitive grants for expanding public computer center capacity.
                          $250,000,000    For competitive grants for innovative programs to encourage sustainable broadband
                                          adoption.
       OIG                 $10,000,000    To be transferred to the Department of Commerce OIG for audits and oversight of
                                          funds provided under this heading.
NTIA                $650,000,000          For additional implementation and administration of the digital‐to‐analog converter box
                                          coupon program, including additional coupons to meet new projected demands and
                                          consumer support, outreach and administration.
                           $90,000,000    Of the amounts provided, up to $90,000,000 may be use for education, and outreach to
                                          vulnerable populations including one‐on‐one assistance for converter box installation.
NIST
Scientific and      $220,000,000          For research, competitive grants, additional research fellowships and advanced
Technical                                 research and measurement equipment and supplies.
Research and
Services
                    $20,000,000           Provided by transfer from the Health Information Technology (HIT) initiative within this
                                          Act. For HIT activities, NIST is directed to create and test standards related to health
                                          security and interoperability in conjunction with partners at the Department of Health
                                          and Human Services.
                    $10,000,000b          Provided to implement section 1305 of Public Law 110–140 Energy Independence and
                                          Security Act of 2007. SEC. 1305. SMART GRID INTEROPERABILITY FRAMEWORK.
                                          The Director of NIST shall have primary responsibility to coordinate the development of
                                          a framework that includes protocols and model standards for information management
                                          to achieve interoperability of smart grid devices and systems.
Construction        $360,000,000          To address NIST's backlog of maintenance and renovation and for construction of new
of Research                               facilities and laboratories.
Facilities
                          $180,000,000    Of the amounts provided, $180,000,000 shall be for the competitive construction grant
                                          program for research science buildings, including fiscal year 2008 and 2009
                                          competitions.
NOAA
Operations,         $230,000,000          To address a backlog of research, restoration, navigation, conservation and
Research, and                             management activities.
Facilities
Procurement,        $600,000,000          For construction and repair of NOAA facilities, ships and equipment, to improve
Acquisition ,                             weather forecasting and to support satellite development.
and Construction
                          $170,000,000    Of the amounts provided, $170,000,000 shall address critical gaps in climate modeling
                                          and establish climate data records for continuing research into the cause, effects and
                                          ways to mitigate climate change.
OIG                 $6,000,000            To remain available until September 30, 2013.
a
  NTIA’s Digital TV Transition and Public Safety program (DTV) rescissions totaled $240 million; the BTOP rescission was $302
million. Transfers to other agencies include NOAA ($350 million) and NTIA ($195 million) transfers. Of the $545 million total in
transfers, $18 million was returned to NOAA in unspent funds. b After February 2009, the Department of Energy added another $2
million to the $10 million it sent to NIST for smart grid activities.




                                                               14
